<html>
<title> - THE 2010 CENSUS: AN ASSESSMENT OF THE CENSUS BUREAU'S PREPAREDNESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
   THE 2010 CENSUS: AN ASSESSMENT OF THE CENSUS BUREAU'S PREPAREDNESS

=======================================================================



                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2010

                               __________

                           Serial No. 111-90

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
62-943                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
HENRY CUELLAR, Texas
JUDY CHU, California
                     Darryl Piggee, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 25, 2010...................................     1
Statement of:
    Jackson, Arnold, Associate Director, U.S. Census Bureau; 
      Robert Goldenkoff, Director, Strategic Issues, Government 
      Accountability Office; and Judy Gordon, Associate Deputy 
      Inspector General, Department of Commerce..................     4
        Goldenkoff, Robert.......................................    18
        Gordon, Judy.............................................    52
        Jackson, Arnold..........................................     4
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Goldenkoff, Robert, Director, Strategic Issues, Government 
      Accountability Office, prepared statement of...............    20
    Gordon, Judy, Associate Deputy Inspector General, Department 
      of Commerce, prepared statement of.........................    54
    Jackson, Arnold, Associate Director, U.S. Census Bureau, 
      prepared statement of......................................     7


   THE 2010 CENSUS: AN ASSESSMENT OF THE CENSUS BUREAU'S PREPAREDNESS

                              ----------                              


                        THURSDAY, MARCH 25, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Driehaus, Cuellar, Chu, and 
McHenry.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Yvette Cravins, counsel; Anthony Clark, 
professional staff member; Charisma Williams, staff assistant; 
John Cuaderes, minority deputy staff director; and Adam Fromm, 
minority chief clerk and Member liaison.
    Mr. Clay. The Information Policy, Census, and National 
Archives Subcommittee will now come to order.
    Good afternoon and welcome to today's hearing, entitled 
``The 2010 Census: An Assessment of the Census Bureau's 
Preparedness.'' Today's hearing, as the title indicates, will 
examine the improvements the Census Bureau has made in its 
operations and systems leading up to the 2010 enumeration. We 
will further examine those specific IT systems and budget 
uncertainties which cause GAO to categorize the Bureau's 
efforts as high risk. Today's dialog should lead to more 
certainty and knowledge of the mitigation strategies for 2010 
census challenges.
    We all have one goal in mind, a true, accurate reflection 
of our country. I appreciate Dr. Groves' leadership and 
efforts.
    We have with us today distinguished colleagues who will be 
joining us who have been asked to participate in this hearing.
    Without objection, the chairman and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
material for the record.
    The purpose of today's hearing is to complete the census 
cycle. We began this journey many hearings ago. This 
subcommittee has visited the compilation of the Master Address 
File, known as LUCA, and its intricacies. We examined the 
external challenges of counting our country and the 
consequences of undercounts. We studied Group Quarter 
Validation and Complete Count Committees. We addressed 
fingerprinting and the hiring of Census workers. We have 
further assessed the advertising campaign to reach our hardest-
to-count populations. So today's efforts must now focus on the 
Bureau itself, with an assessment of its preparedness to 
complete the 2010 task.
    First on our panel, we will hear from Mr. Arnold Jackson, 
Associate Director of the Census Bureau.
    Welcome.
    Next, we will hear from Mr. Robert Goldenkoff, Director of 
Strategic Issues at the Government Accountability Office.
    Thank you for being here.
    And our final panelist is Ms. Judy Gordon, Associate Deputy 
Inspector at the Department of Commerce.
    This panel is well suited to answer all questions and 
provide updates on the Bureau's preparedness. We look forward 
to their insight into this effort, and I thank all of the 
witnesses for appearing today and look forward to their 
testimony.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] 62943.001
    
    Mr. Clay. At this time, I will now yield to any Member who 
has an opening statement.
    Ms. Chu, would you have an opening? No, you're fine.
    How about Mr. Cuellar? Would you have a--no.
    All right. Then we will take testimony now.
    Mr. Jackson, we will start with you, and--we will hear 
first from you, Mr. Jackson, and second from Mr. Goldenkoff and 
finally from Ms. Gordon.
    It is the policy of this committee to swear in all 
witnesses before they testify.
    [Witnesses sworn.]

 STATEMENTS OF ARNOLD JACKSON, ASSOCIATE DIRECTOR, U.S. CENSUS 
    BUREAU; ROBERT GOLDENKOFF, DIRECTOR, STRATEGIC ISSUES, 
 GOVERNMENT ACCOUNTABILITY OFFICE; AND JUDY GORDON, ASSOCIATE 
        DEPUTY INSPECTOR GENERAL, DEPARTMENT OF COMMERCE

                  STATEMENT OF ARNOLD JACKSON

    Mr. Jackson. Thank you, Chairman Clay, Ranking Member 
McHenry, members of the subcommittee, for this opportunity to 
provide an operational update, including the status of the 
Paper-Based Operations Control System of the 2010 decennial 
census.
    Mr. Chairman, as you know, we are underway, the census is 
ongoing and proceeding, and we are on a path to a successful 
2010 census. The efforts of the previous years are paying off, 
including the support of this subcommittee and committee, and 
our work with stakeholders are now paying dividends.
    A complete and accurate census is a complex endeavor. 
However, the finely tuned strategies we have to count every 
person in this country are paying off. All of these efforts, 
from census operations to promotion, are grounded in thorough 
research, extensive coordination and preparation, and local 
knowledge.
    The 2010 census enumeration actually began in Noorvik, AK, 
on January 25th. In this small village, which piques the 
interest and imagination of the country each decade, the 
resulting news generated interest from over 80 million people, 
a great introduction for the 2010 census.
    We have also conducted an operation known as Group Quarters 
Advance Visit, which facilitates the process of counting 
residents in group quarters. Census workers visited more than 
270,000 group quarters locations to plan for the group quarters 
enumeration.
    We have started an enumeration of--an enumeration activity, 
known as Update/Leave, where we actually go to addresses where 
the address may not represent the actual location of the 
housing unit.
    We are doing Update/Enumerate, which began on March 22nd 
and ends May 29th. Update/Enumerate is primarily used in areas 
with seasonal housing; therefore, a high number of vacants, 
American Indian areas, and the colonias in South Texas.
    The vast majority of housing units, however, more than 120 
million, received their questionnaires in the mail last week. 
Mailout/Mailback for the 2010 census includes an advance 
letter, the questionnaire and a reminder postcard; and for the 
first time, we will send a replacement questionnaire to about 
25 million households in census tracts where we anticipate a 
low response rate. This will be done on April 3rd.
    The staged efforts are intended to encourage participation. 
We have a program that is available on our Web site, known as 
Take 10 Challenge. It is a challenge that we have initiated to 
encourage some friendly competition between communities to 
compare their response participation rates to each other. As 
you know, participation is the foundation of an accurate and 
complete census, but that is not all.
    We also have Telephone Questionnaire Assistance and an 
Integrated Communications program. The goal of the Telephone 
Questionnaire Assistance is to quickly provide assistance 
whether it is answering a question, sending a Language 
Assistance Guide or sending a replacement questionnaire to call 
us. Further, we have 30,000 Questionnaire Assistance Centers 
that are now open where respondents can get help filling out a 
Census form.
    But of course, as you know and as we have testified and as 
our director has testified recently, the cornerstone of the 
2010 census promotional effort is the Communications program, 
which includes both advertising and partnerships. The campaign 
has proven successful, and we are experiencing high levels of 
interest and indications of intent to participate in the 
census.
    As you know, by increasing the response rate, we can 
dramatically affect the costs and effectiveness of our 
nonresponse operations. In a matter of a few weeks, we will be 
prepared to send as many as 700,000 temporary workers to the 
field to enumerate between 47 million and 55 million housing 
units.
    While it is important to note that we are much better 
prepared than we were in any previous census, we are not 
without concerns. We continue to manage daily the risk of 
instability and the limited functionality of our Paper-Based 
Operations Control System and of our Decennial Applicant, 
Personnel and Payroll System.
    The Census Bureau undertook the development of the Paper-
Based Operations Control System as a high-risk alternative in 
2008. The compressed PBOCS development schedule has resulted in 
abbreviated testing cycles which occur much closer to 
operations than we would have preferred. That, in turn, has led 
to a higher number of defects than we would have expected. 
However, we are prioritizing them as we move toward operations. 
Workarounds, such as staggering start times, sharing printing 
resources and other such alternatives, are allowing us choices 
and tradeoffs to ensure successful field operations despite 
less than perfect IT systems.
    I am managing these risks daily, and our outlook is 
improving. We have recently boasted both the Paper-Based 
Operations Control System and the DAPPS system infrastructure 
and technical support.
    The Census Bureau remains cautiously optimistic, and I am 
personally encouraged by recent progress and by the dedication 
of staff and contractors. In the last couple of weeks, not only 
have I overseen the installation of new hardware and witnessed 
a decreasing number of defects, but we have been able to slowly 
increase user capacity--all indications that, day by day, this 
system is becoming mature. PBOCS is functioning and currently 
supporting our field operations.
    Over the next several months, hundreds of important tasks 
will be completed, and your continued support is crucial to a 
successful census. Again, I thank the subcommittee for this 
opportunity, and I am more than happy to answer your questions.
    Thank you.
    Mr. Clay. Thank you so much, Mr. Jackson.
    [The prepared statement of Mr. Jackson follows:]
    [GRAPHIC] [TIFF OMITTED] 62943.002
    
    [GRAPHIC] [TIFF OMITTED] 62943.003
    
    [GRAPHIC] [TIFF OMITTED] 62943.004
    
    [GRAPHIC] [TIFF OMITTED] 62943.005
    
    [GRAPHIC] [TIFF OMITTED] 62943.006
    
    [GRAPHIC] [TIFF OMITTED] 62943.007
    
    [GRAPHIC] [TIFF OMITTED] 62943.008
    
    [GRAPHIC] [TIFF OMITTED] 62943.009
    
    [GRAPHIC] [TIFF OMITTED] 62943.010
    
    [GRAPHIC] [TIFF OMITTED] 62943.011
    
    [GRAPHIC] [TIFF OMITTED] 62943.012
    
    Mr. Clay. Mr. Goldenkoff, you may proceed.

                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Chairman Clay, Ranking Member McHenry, 
members of the subcommittee, thank you for the opportunity to 
be here today to provide an update on the Census Bureau's 
readiness for the 2010 enumeration. With 1 week remaining until 
census day, the Nation has entered one of the most crucial time 
periods in the decade-long census life cycle.
    Earlier this month, the Bureau mailed out questionnaires to 
around 120 million households. In the coming weeks, the Bureau 
will launch additional operations aimed at enumerating certain 
hard-to-count populations as well as the estimated 50 million 
households that fail to mail back their Census forms. The 
success of these operations will have a major impact on the 
accuracy of the census as well as its ultimate cost, now 
estimated at around $14.7 billion.
    As requested, I will update the subcommittee on the state 
of the census, paying particular attention to, first, the 
reliability of key IT systems and, second, the extent to which 
critical enumeration activities are on track.
    Overall, the Bureau's readiness for a successful head-count 
is mixed. It is deeply troubling that, at this late date, two 
critical IT systems have not yet demonstrated their ability to 
function reliably under full operational loads. The performance 
problems plaguing these two systems represent the most 
significant threat to the cost and the quality of the 
enumeration.
    Specifically, the Decennial Applicant Personnel and Payroll 
System [DAPPS], the automated system the Bureau is using to 
process applicants and handle the payroll of the Bureau's 
massive temporary labor force--needed to be fully functional 
under a heavy load, by mid-March. However, the system had 
limited capacity and was sluggish. These shortcomings occurred 
despite the fact that 100,000 temporary employees were on 
board, far below the roughly 600,000 employees that will be 
working when nonresponse followup is in full swing in a few 
weeks.
    As of March 22nd, Bureau officials stated that they had 
taken steps to improve DAPPS' performance, including upgrading 
the system's software and installing additional hardware. More 
will be known about the success of these fixes in the coming 
days.
    The Bureau also needs to resolve ongoing problems with the 
workflow management system it will use to administer its field 
operations. Although the first release of this system was 
deployed for early field activities in January and certain 
components of the second release were deployed in February, 
both releases have known defects, including limited 
functionality, slow performance, and problems generating 
certain progress and performance reports. The Bureau also 
restricted the number of users in each local Census office due 
to capacity limitations.
    What's more, the component of the second release that will 
be used to manage nonresponse followup, the largest Census 
field operation, is still being tested and is scheduled to be 
released in mid-April. This is about 3 weeks later than planned 
and barely ahead of when nonresponse followup is scheduled to 
begin in early May. As a result, little time will be left to 
resolve any problems identified during testing.
    Other functions are faring better. Key enumeration 
activities are generally on track, and some activities aimed at 
improving the participation of hard-to-count groups are more 
robust compared to similar efforts during the 2000 census.
    For example, the Bureau has launched an aggressive outreach 
and promotion effort. Key differences from 2000 include 
increased staffing for the Bureau's partnership program, 
targeted paid advertising based on market and attitudinal 
research, and a contingency fund to address unexpected events.
    Moreover, to improve the participation of transient 
seasonal farm workers and others at risk of being missed by the 
census, the Bureau launched its Be Counted program earlier this 
month. This effort makes forms available in around 40,000 
locations across the country, such as libraries and community 
centers.
    Moving forward, it will be important for the Bureau to 
quickly identify the problems affecting key IT systems and test 
solutions. Further, given the complexity of the census and the 
likelihood that other glitches might arise, it will be 
important for the Bureau to stay on schedule, monitor 
operations and have plans and personnel in place to quickly 
address operational issues.
    These operational considerations aside, I want to stress 
that the Census Bureau cannot secure a complete count on its 
own. The public must also fulfill its civic duty to return 
their questionnaires in a timely manner. According to the 
Bureau, each percentage point increase in the mail response 
rate saves taxpayers around $85 million and yields more 
accurate data.
    The bottom line is that the success of the 2010 census is 
now, to a large degree, in the hands of the Nation's residents.
    Chairman Clay, Ranking Member McHenry, this concludes my 
remarks, and I will be happy to answer any questions that you 
or other members of the subcommittee might have.
    Mr. Clay. Thank you so much, Mr. Goldenkoff.
    [The prepared statement of Mr. Goldenkoff follows:]
    [GRAPHIC] [TIFF OMITTED] 62943.013
    
    [GRAPHIC] [TIFF OMITTED] 62943.014
    
    [GRAPHIC] [TIFF OMITTED] 62943.015
    
    [GRAPHIC] [TIFF OMITTED] 62943.016
    
    [GRAPHIC] [TIFF OMITTED] 62943.017
    
    [GRAPHIC] [TIFF OMITTED] 62943.018
    
    [GRAPHIC] [TIFF OMITTED] 62943.019
    
    [GRAPHIC] [TIFF OMITTED] 62943.020
    
    [GRAPHIC] [TIFF OMITTED] 62943.021
    
    [GRAPHIC] [TIFF OMITTED] 62943.022
    
    [GRAPHIC] [TIFF OMITTED] 62943.023
    
    [GRAPHIC] [TIFF OMITTED] 62943.024
    
    [GRAPHIC] [TIFF OMITTED] 62943.025
    
    [GRAPHIC] [TIFF OMITTED] 62943.026
    
    [GRAPHIC] [TIFF OMITTED] 62943.027
    
    [GRAPHIC] [TIFF OMITTED] 62943.028
    
    [GRAPHIC] [TIFF OMITTED] 62943.029
    
    [GRAPHIC] [TIFF OMITTED] 62943.030
    
    [GRAPHIC] [TIFF OMITTED] 62943.031
    
    [GRAPHIC] [TIFF OMITTED] 62943.032
    
    [GRAPHIC] [TIFF OMITTED] 62943.033
    
    [GRAPHIC] [TIFF OMITTED] 62943.034
    
    [GRAPHIC] [TIFF OMITTED] 62943.035
    
    [GRAPHIC] [TIFF OMITTED] 62943.036
    
    [GRAPHIC] [TIFF OMITTED] 62943.037
    
    [GRAPHIC] [TIFF OMITTED] 62943.038
    
    [GRAPHIC] [TIFF OMITTED] 62943.039
    
    [GRAPHIC] [TIFF OMITTED] 62943.040
    
    [GRAPHIC] [TIFF OMITTED] 62943.041
    
    [GRAPHIC] [TIFF OMITTED] 62943.042
    
    [GRAPHIC] [TIFF OMITTED] 62943.043
    
    [GRAPHIC] [TIFF OMITTED] 62943.044
    
    Mr. Clay. Ms. Gordon, you're up for 5 minutes.

                 STATEMENT OF JUDITH J. GORDON

    Ms. Gordon. Thank you.
    Chairman Clay, Ranking Member McHenry, and members of the 
subcommittee, we are pleased to be here today to share our 
perspectives on the Census Bureau's readiness for this year's 
decennial count. As my colleagues on the panel have noted, the 
census is already in high gear, with more than 100 million 
residents receiving Census forms last week. However, key 
information technology systems continue to experience 
performance and functionality shortfalls, and these systems can 
affect the ultimate schedule, cost, and success of the census.
    My statement today will cover three areas: first, the 
systems issues and their risk to nonresponse followup [NRFU]; 
second, the importance of monitoring NRFU costs; and third, 
some initial observations from our field work.
    Critical to the success of NRFU is the Paper-Based 
Operations Control System [PBOCS]. This system is essential to 
handling assignments to enumerators, tracking questionnaires 
and reporting on the status of operations. PBOCS development 
has been compressed to meet the schedule. The inevitable impact 
of this ``just in time'' approach is that certain errors are 
not being found until the system is in actual operation, and 
not all capabilities are implemented.
    PBOCS has suffered from slow performance and continues to 
experience complete system outages. An outage earlier this week 
lasted an entire day. A similar outage during the large NRFU 
operation would be particularly serious.
    The Decennial Applicant, Personnel and Payroll System 
[DAPPS], has experienced similar performance limitations and 
operational impacts. DAPPS is critical to recruiting, managing, 
and paying the enormous temporary Census work force.
    To allow for installation and testing of improvements, 
local Census office systems have been shut down at night and on 
weekends. This prevents Census from adding more shifts to catch 
up on work that has fallen behind schedule. Census engineers 
and operational managers are aggressively attacking the system 
issues. Nevertheless, Census will have to rely on workarounds 
to compensate for system limitations. Workarounds must be fully 
tested and clearly explained to minimize further disruptions.
    Turning to cost and cost containment, it will be especially 
important for Census to monitor and control NRFU costs. Address 
canvassing went 25 percent over its budget, largely due to 
overspending on wages and mileage reimbursements to temporary 
address listers. NRFU is much bigger, so any cost overruns will 
be much more expensive.
    The ability to produce valid budget estimates is essential 
to cost containment. Wide budget variances among local Census 
offices in address canvassing, from less than 1 percent to over 
800 percent, indicate significant weaknesses in the Bureau's 
budget estimation capability and uncertainty in the decennial 
cost.
    Finally, I will briefly mention two major challenges found 
in our initial observations in the field during the Update/
Leave operation.
    First, our staff saw firsthand how the slow performance and 
lack of systems reliability are affecting efficiency in local 
Census offices. We observed work getting interrupted, data 
having to be entered into the system more than once, and 
completion of tasks being delayed.
    Second, we identified a few areas in which it appears that 
maps were not updated from address canvassing. If widespread, 
this would be a significant problem. We are working with the 
Bureau to determine both the extent and reasons for these map 
errors.
    In summary, Mr. Chairman, although much of the Bureau's 
plan is on track, IT problems place the efficiency and accuracy 
of nonresponse followup at risk, and final decennial costs 
remain uncertain. While our testimony today discusses serious 
IT system challenges, we are mindful of the extraordinary 
efforts being made by a very dedicated Census staff to achieve 
a successful outcome.
    This concludes my statement, and I would be happy to answer 
any questions that you or any other members of the subcommittee 
may have at this time.
    Mr. Clay. Thank you, Ms. Gordon.
    [The prepared statement of Ms. Gordon follows:]
    [GRAPHIC] [TIFF OMITTED] 62943.045
    
    [GRAPHIC] [TIFF OMITTED] 62943.046
    
    [GRAPHIC] [TIFF OMITTED] 62943.047
    
    [GRAPHIC] [TIFF OMITTED] 62943.048
    
    [GRAPHIC] [TIFF OMITTED] 62943.049
    
    [GRAPHIC] [TIFF OMITTED] 62943.050
    
    [GRAPHIC] [TIFF OMITTED] 62943.051
    
    [GRAPHIC] [TIFF OMITTED] 62943.052
    
    [GRAPHIC] [TIFF OMITTED] 62943.053
    
    [GRAPHIC] [TIFF OMITTED] 62943.054
    
    [GRAPHIC] [TIFF OMITTED] 62943.055
    
    [GRAPHIC] [TIFF OMITTED] 62943.056
    
    [GRAPHIC] [TIFF OMITTED] 62943.057
    
    [GRAPHIC] [TIFF OMITTED] 62943.058
    
    [GRAPHIC] [TIFF OMITTED] 62943.059
    
    [GRAPHIC] [TIFF OMITTED] 62943.060
    
    Mr. Clay. I want to thank all of the witnesses for their 
testimony.
    Now the committee will proceed to the question-and-answer 
period, and we will begin with Mr. McHenry, who will be allowed 
to give an opening statement as well as questions.
    Mr. McHenry. Well, thank you, Mr. Chairman, and it's--you 
know, right in keeping with your testimony, I certainly 
appreciate, Mr. Chairman, your having this hearing today 
because it is obvious that we still have a lot of questions and 
issues to resolve even though census day is just less than a 
week away.
    And it is great concerns that I hear from every one of you, 
significantly different from the Bureau compared to the last 
testimony we had from Dr. Groves. But I do appreciate you all 
coming. I know it's very busy right now, both for the IG and 
for the GAO as well as for the Census Bureau.
    But it does seem to me like we're jumping the gun a little 
bit on this hearing. I think we're going to need to have 
another hearing and see how the mail is coming in, because 
we're just days into mail coming back in and determining our 
response rate. So I do think, with the chairman's leadership, 
we should be able to do that when Congress comes back.
    Most households didn't even receive their 2010 
questionnaire until about a week and a half ago. A lot of my 
constituents are writing and calling about this as well, which 
is a good sign that people are aware of the census, but I 
certainly appreciate the chairman's leadership with what's 
going on and making sure that we have frequent hearings on this 
matter.
    As Dr. Groves has stated, he would like to have an ongoing 
dialog with us as well.
    Mr. Clay. And, Mr. McHenry, we do intend on holding 
hearings to look at the mailback response rate and at other 
functions of the Bureau in their effort.
    Mr. McHenry. Well, thank you, and I'll get to my 
questioning now; but you know, we've got some issues here.
    Mr. Jackson, you're slightly less positive in the tone that 
you have about the Bureau's preparedness.
    Is the Bureau prepared for the 2010 census?
    Mr. Jackson. Congressman, yes, sir, we are.
    I am attempting to be candid, not in any way not 
optimistic. I am convinced we will have a successful census. As 
you know, 2 years ago, when we undertook what we call the REAP 
line, we stated that choosing this path of doing paper-based 
operations in lieu of continued automation would be somewhat 
high risk. In general, that's what we're experiencing now. We 
think we're prepared.
    Mr. McHenry. Time is short.
    So is the Bureau still on track to meet its budget outlook 
and view for nonresponse followup?
    Mr. Jackson. Yes, sir. We've done a complete budget review 
of nonresponse followup. We have looked at over 20 line items, 
and we feel that we are more than prepared to do a successful 
nonresponse followup at a range of response estimates on time 
and within the budget we have.
    Mr. McHenry. Mr. Goldenkoff, is that the view of the 
Government Accountability Office?
    Mr. Goldenkoff. From the data that we've seen, certainly 
the future is uncertain. The Bureau may be able to handle the 
workload as of today, but things are going to ramp up pretty 
quickly. And as an example, you heard us mention the situation 
with the operational control system. Right now, it's at a 
capacity where it's handling seven simultaneous users per 
office at a time. It needs to ramp up eventually to 16, and the 
Bureau is definitely not there yet; but nationwide, right now, 
it needs to go from 3,000 simultaneous users up to 3,000 during 
nonresponse followup. From what we've seen, the Bureau still 
has a lot of work to do.
    Mr. McHenry. OK. Ms. Gordon, how many folks on the IG staff 
are working on the census?
    Ms. Gordon. Well, our plan is to have about 100 members of 
our staff working on the census at the peak, and we're ramping 
up to that in the early operations.
    Mr. McHenry. How many currently are?
    Ms. Gordon. How many currently? I think we have about 20 or 
so working on it currently.
    Mr. McHenry. OK. Mr. Jackson, in terms of the Vacant/Delete 
Check, there has been--would you tell us why there is a change 
of $137 million, an increase in the cost estimate for this 
Vacant/Delete Check?
    Mr. Jackson. Yes, sir. Two major components.
    One, the number of vacant units, as you might suspect, is 
higher because of foreclosures and because of the economy than 
we expected when we did our initial planning, which, as you 
know, runs about 2 years ahead of when we do the operation.
    Also, we have added to Vacant/Delete, and we think this is 
a positive step. A number of--a workload that consists of 
housing units that we have identified through the LUCA process 
that should be included in the census, we have added them to 
Vacant/Delete so that we can get those included as soon as 
possible and mail those households forms.
    Mr. McHenry. What keeps you up at night?
    Mr. Jackson. What keeps me up at night----
    Mr. McHenry. Professionally, not personally.
    Mr. Jackson. I do--I am managing the two critical systems, 
that my colleagues have mentioned, daily. And we're making 
progress----
    Mr. McHenry. What two systems are those?
    Mr. Jackson. The DAPPS, the payroll system. We've 
recently--this past weekend, we upgraded that system, and it is 
running much faster, so DAPPS is kind of receding from my worry 
list.
    The paper-based control system I manage with my colleagues 
from field division and my CIO, Brian McGrath, who is here 
today. So we are constantly looking at what we're doing, 
selecting where we need workarounds so that by April 4th, we 
will know what system we're taking to the field, and we can 
test it the final 2 weeks before we go to nonresponse.
    Mr. McHenry. So that's what keeps you up at night?
    Mr. Jackson. That's what keeps me up, yes.
    Mr. McHenry. Mr. Goldenkoff, I know you follow the census 
extensively, and in the Government Accountability Office, 
obviously that is your job to have these items keep you up at 
night.
    Mr. Goldenkoff. Exactly.
    Mr. McHenry. What are those items that keep you up at 
night?
    Mr. Goldenkoff. The operation control system. That is sort 
of the brains of the census. They can't conduct the field 
operations without it, and right now, as we see it, there are 
four issues with it.
    One, people. They are being--the people who are working on 
the system, they're working extremely hard, nights and 
weekends, but they're under strain. There are just not enough 
of them to go around, and the ability to train new people is 
very limited. And it's quite likely that new problems will crop 
up; and will they be able to handle these new problems and fix 
the existing ones as demands on the system begin to increase?
    There are also hardware and software issues, and all this 
is running up against a very tight schedule. Nonresponse 
followup begins at a very fixed date. Other operations begin at 
very fixed dates, and if the system isn't ready, if it's not 
able to support these operations, you're going to start seeing 
schedule slippages and cost increases.
    Mr. McHenry. How many folks at the GAO are working on the 
census?
    Mr. Goldenkoff. Right now, it's about 20.
    Mr. McHenry. How many will be working on it in another 
month or two?
    Mr. Goldenkoff. We'll start to ramp up, too, for field 
operations.
    For example, for nonresponse followup, we have most of our 
field offices involved, and so we will be on the ground, 
observing nonresponse followup. Next week, for service-based 
enumeration, we will have, also, most of our field offices 
involved in observing service-based enumeration. So we are 
quite prepared, and also, most notably, it is a very 
experienced staff, too. Virtually all of our middle and senior 
managers have experience from the 2000 census.
    Mr. McHenry. OK. All right.
    Well, Chairman Clay, I know there is an effort to get other 
folks asking questions, but I certainly appreciate your being 
very candid about this, and I hope that--you know, Mr. Jackson, 
most of us are--my communities are very interested in making 
sure the technology is available so that we can monitor the 
response rate, the mail response rate. I appreciate the widget 
that we're going to be able to put on our Web site, but we want 
to be able to do that sooner rather than later so we can follow 
this.
    Thank you so much.
    Mr. Clay. Thank you, Mr. McHenry--and point well taken.
    Ms. Chu of California, you're recognized.
    Ms. Chu. Yes.
    I know this hearing is about the overall preparedness of 
the census, but I want to talk about glitches that are 
happening right now, Mr. Jackson.
    In my area, there are residents that are complaining 
because they are living in one city, but they're receiving 
Census forms that are addressed to another adjoining community. 
For example, residents in my area who live in Hacienda Heights 
are getting Census forms that have La Puente listed as the 
city; and apparently, the director, Robert Groves, put 
something on his blog Tuesday morning in which he said: The 
actual location of your address has been verified for accuracy, 
and that it was a move by the Bureau to save money, and it 
streamlines how the forms are sorted and delivered to you by 
the U.S. Postal Office.
    But you can imagine----
    Mr. Jackson. Sure.
    Ms. Chu [continuing]. The kind of feeling that people have 
seeing the address listed incorrectly. And I also heard that 
what they're saying is that, you know, as far as the bar code, 
it's correct. So I want to know: Was this discrepancy really 
intentional?
    Mr. Jackson. Let me kind of explain how this came about.
    We--in working with the Postal Service, this is the largest 
public mailing that has ever occurred, 120 million addresses. 
The Postal Service, in some zip codes, uses a single city when 
they have mass mailings. Now, while we knew of this, we did not 
know exactly what city name the Postal Service would select in 
each zip code, and we probably underestimated the public 
reaction because, as you say--and I would agree with you--it 
certainly is alarming to some residents. There are other zip 
codes, like the zip code I live in, where it is not unusual for 
me to get mail labeled Colesville, even though I live in Silver 
Spring. However, I realize that's not the case for everyone, 
and we underestimated that.
    So we have tried to emphasize that the proper counting and 
tabulation in a jurisdiction does not depend on the city name, 
and I think that message is now beginning to get through to 
some public officials because we're beginning to see those 
statements.
    The proper allocation of a housing unit to its jurisdiction 
really occurs when we do the physical location determination; 
and about a year ago, we did an exercise called Address 
Canvassing, and we used GPS coordinates to make sure the 
physical housing unit was in the right block in your 
jurisdiction. So that's what Director Groves means when he says 
that it will not affect where you're counted.
    I would not minimize, however, the concern that the public 
has--and we've tried through our own media arms, through our 
partners and through our regional offices--to ensure residents 
that they will be counted in the right place. We did not 
anticipate this level of angst, and for that, I apologize. 
However, it does not have to do with where people will be 
counted.
    Ms. Chu. So this wasn't a move to save money?
    Mr. Jackson. It is a--it's an efficiency move on the part 
of the U.S. Postal Service, not necessarily the Census Bureau 
trying to save money. The Postal Service does this for reasons 
of efficiency and delivery accuracy.
    Ms. Chu. So how could we avert this from happening next 
time? Now it's too late, but----
    Mr. Jackson. Yes. It will not be that complicated now that 
we know the potential to cause, you know, public furor. I think 
we will have to have an agreement of some kind with the Postal 
Service to use only a single city name for a given area, and we 
have a list of names. It's just that we gave the post office a 
choice, and we probably need to work through a more mutually 
agreeable arrangement in 2020.
    Ms. Chu. OK. Thank you.
    Mr. Clay. Thank you, Ms. Chu.
    The gentleman from Texas, Mr. Cuellar, is recognized for 5 
minutes.
    Mr. Cuellar. Thank you very much, Mr. Chairman.
    Mr. Jackson and the other witnesses, thank you very much 
for being here with us.
    Mr. Jackson, first of all, I want to thank the Census for 
the heated map data. We've been keeping up with that from the 
very first day. We appreciate that.
    And I've been looking--as you know, I represent the 
southern part of Texas, a lot of the border areas, and I've 
been keeping up with, for example, the national average as of 
today. On March 25th, the national average was 20 percent on 
the participation rate. The State of Texas was 12. My home 
county, which is--and I've been talking to Dr. Groves, and I 
thank him for being down there--is 2 percent. Then I have Stark 
County, which is another border county, at 4 percent. Zapata, 
another county, at 7. Hidalgo, another one, at 6 percent. So 
you can see there is a little sink trend we've been seeing for 
a while.
    And as you know, in the past, I've been bringing up 
questions about how you're all spending that money. The 
advertising on the spending, as you'll recall--I don't know if 
you were here. The last time Dr. Groves was here, I was 
bringing up the point that, when you all came up with your 
budget on March 26, 2009 compared to the budget from February 
4, 2010, there was a decrease in budget from local ad buys for 
the hard-to-count communities, but at the same time, there was 
an increase in the budget for production and labor and so 
forth. So, you know, I'm one of those that I want to see the 
efficiencies in how you spend the best dollars for this.
    Are there any updates on the numbers for the budgets or do 
we still have the same lower amounts of local ads? And I'm not 
doing a comparison to 2010, because I know there was an 
increase, but I'm looking at the--when you had a budget in 2009 
and, of course, the latest budget. I just had a concern that 
you put more money for production and labor and less money for 
the hard-to-count, especially since I've been--and I told Dr. 
Groves I was going to followup, and I placed a phone call 
today, and I'm supposed to be talking to him tomorrow about the 
hard-to-count and that we're going to followup on this because 
we've been looking at this with a lot of interest.
    And, again, the heated map data--I think it's one of the 
best things the Census has done, and I want to congratulate you 
on that.
    Mr. Jackson. Yes, sir.
    Congressman, let me say that on the spending, the spending 
for local ethnic audiences is actually higher than it was in 
proportion to the spending for what we call ``diverse 
America.'' Now, you mentioned a different categorization in 
terms of production from paid media by--from actually buying 
airtime, so I'm not sure what you----
    Mr. Cuellar. Well, the reference was if we could save a 
little bit more money in production and labor, because I think 
one of the things--what happened, Mr. Chairman, was that you 
all were paying actors money, and every time you run an ad, 
they get a little fee.
    Mr. Jackson. I see.
    Mr. Cuellar. There would have been a lot of community--
local trusted leaders--church leaders and other community 
leaders--in my district and other places that would have more 
impact, with all due respect, than some actor from L.A.--sorry, 
anybody from L.A.--or from somewhere else--Hollywood, should I 
say. And I think--in my area, if you were to put one of those 
local trusted leaders in one of those, I think it would have 
had more of an impact, and I think Chairman Clay and I have 
talked about this.
    But I do understand there has been an increase, but I'm 
trying to squeeze more dollars----
    Mr. Jackson. Right.
    Mr. Cuellar [continuing]. From the production and labor 
because, you know, without going into details, there was an 
increase there.
    Mr. Jackson. Right. Let me tell you what we are doing.
    We do have a reserve fund of about $7 million, and next 
week we will be looking at a summary of the data that you just 
mentioned, the daily response rates, which we track daily. We 
look at them daily, and we will be making decisions about where 
to strategically place additional ads and where possibly to 
spend additional money in newspapers. So we are, I think, where 
you want us to be on that.
    Mr. Cuellar. Yes, sir, and I appreciate that.
    I just wondered, just because when we met, Chairman Clay, 
with Dr. Groves and your staff, that was exactly the point 
we're talking about, the $7 million, and then we were going to 
be tracking. I think we're at the time now that Dr. Groves 
asked us to get back to him--and this is why I placed a phone 
call earlier today--to followup on that because, like I said, 
my home county, which I've been talking about, which is in the 
top 50 counties that are hard to count, according to your data, 
has 2 percent. And unless if it changed between the last time 
you updated the number--it's at 2 percent, and we have one at 4 
percent and one at 6 percent--way below the 20 for the national 
average. So I just wanted to----
    Mr. Jackson. Let me mention just a couple of other things, 
Congressman, because I want you to appreciate, if possible, the 
efforts we're undertaking to make sure we do count everyone 
there.
    Mr. Cuellar. And I do. I do.
    Mr. Jackson. We're doing a procedure called Update/
Enumerate where we actually do the enumeration ourselves rather 
than mail out in parts of your area. We will be not only adding 
something to the strategic ads, but we have some special 
partnership efforts we'll be undertaking around April 10th that 
will put people on the ground to try to encourage respondents 
who have not responded by that point in time, and of course, we 
still have the replacement questionnaire that we will send out 
next week.
    Mr. Clay. Excuse me.
    If I may, Mr. Jackson, would you share with Mr. Cuellar and 
the subcommittee in writing the efforts that you're making in 
hard-to-count communities----
    Mr. Jackson. Certainly. Certainly. I'd be more than happy 
to and to meet with your staff.
    Mr. Clay [continuing]. In particular in south Texas.
    Mr. Jackson. Yes, we will. We'd be more than happy to.
    Mr. Cuellar. And, again, thank you, Mr. Chairman. I want to 
thank you. I know you're all trying the best. I'm just trying 
to do my best to represent my district.
    Thank you.
    Mr. Clay. Thank you very much.
    Mr. Jackson, what is the--you are bringing in senior 
engineers from your major hardware and software vendors to 
review the PBOCS issue. I understand that even this Tuesday 
there were severe performance issues.
    What have your engineers found, and what are your immediate 
plans for remedy?
    Mr. Jackson. Yes, sir, Mr. Chairman.
    We have brought in engineers, not really to consult but to 
do, and there are parts of our configuration that have to do 
with operating systems, Oracle data bases and certain hardware 
configurations--network configurations--that are very powerful 
but are somewhat new to us. So to augment our technical 
resources, we have brought in consultants from each of those 
vendors to make sure that the way we are using their technology 
is appropriate.
    Mr. Clay. Sure.
    Real quickly, tell the subcommittee about the Bureau's 
contingency plans in the event of a data security breach.
    Mr. Jackson. We have a COOP program, a Continuity of 
Operations Program; and for data breaches, we have an 
established set of procedures that we go through. We have 
actually had to go through that a couple of times where the 
local managers have instructions as to how to secure the 
facility. We have at the Department of Commerce a reporting of 
incidents that goes on every 24 hours, and then we have 
protocols for contacting local officials to make sure that 
anything that requires law enforcement involvement is 
immediately invoked.
    Mr. Clay. Thank you so much for the response.
    Mr. Goldenkoff, can you give me your general opinion as to 
whether there is time to ensure that the Bureau's IT systems, 
particularly DAPPS and PBOCS, can meet their operational 
requirements?
    Mr. Goldenkoff. There is time, but it's running out.
    Mr. Clay. It's running out?
    Mr. Goldenkoff. That's the bottom line.
    I mean, as I said before, there are these fixed dates, and 
there's still a lot of testing that needs to be done. A lot of 
these release--not a lot--but the release that will be 
responsible for nonresponse followup, that has some known 
defects in it. That hasn't been fully tested yet, and as these 
tests are completed, it's possible that new defects will be 
found.
    Mr. Clay. Have they followed your recommendation as to how 
to shore this situation up?
    Mr. Goldenkoff. They have, but they--for example, we 
recommended better executive-level oversight, for example, 
better coordination among the different teams, and they've 
certainly done that, and we've given them credit for it; but in 
the end, there's these immutable deadlines and the workload 
that needs to be done, and from what we're seeing right now, 
it's going to be a challenge to complete all the testing to 
complete that workload in time for these operations to start.
    Mr. Clay. Not shaping up like it should. Thank you.
    Mr. Goldenkoff. It's worrisome.
    Mr. Clay. And, Ms. Gordon, let me just have you finish off 
the answers.
    Your quarterly report states that Census spent 15 percent 
less than it had planned for the 3 months ending in 2009. Is it 
unlikely that the Census will continue similar cost containment 
in the coming months?
    Ms. Gordon. Well, we would hope so, but we wouldn't 
necessarily anticipate that would be the case.
    What we have seen is a lot of variability of actual costs 
incurred as compared to the cost estimate, so--and we have 
recommended that Census really rigorously apply internal 
controls so that wages claimed and travel costs claimed are 
actually what was incurred, and so we--you know, we're 
encouraging Census to pay a great deal of attention to that to 
try to keep the costs on track.
    Mr. Clay. Thank you so much.
    Let me thank the entire panel for their testimony today. We 
appreciate your testimony and your willingness to come before 
the committee, and that concludes this hearing.
    Hearing adjourned.
    [Whereupon, at 2:53 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
